                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-13                                    Office of Inspections                                       June 2014




         Compliance Followup Review of
     The Bureau of International Information
                    Programs




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                  PURPOSE, SCOPE, AND METHODOLOGY
                 OF THE COMPLIANCE FOLLOWUP REVIEW

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

The Office of Inspections provides the Secretary of State, the Chairman of BBG, and Congress
with systematic and independent evaluations of the operations of the Department and BBG.
Compliance followup reviews cover three broad areas, consistent with Section 209 of the
Foreign Service Act of 1980:

        Policy Implementation: whether policy goals and objectives are being effectively
          achieved; whether U.S. interests are being accurately and effectively represented; and
          whether all elements of an office or mission are being adequately coordinated.

        Resource Management: whether resources are being used and managed with
          maximum efficiency, effectiveness, and economy and whether financial transactions
          and accounts are properly conducted, maintained, and reported.

        Management Controls: whether the administration of activities and operations meets
          the requirements of applicable laws and regulations; whether internal management
          controls have been instituted to ensure quality of performance and reduce the
          likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
          whether adequate steps for detection, correction, and prevention have been taken.

        The Office of Inspections may perform on-site CFRs to verify whether agreed-upon
corrective actions for recommendations issued in previous reports were fully and properly
implemented and to provide OIG with a quality assurance assessment of its work.

METHODOLOGY

        In conducting this CFR, the inspectors have: 1) reviewed the previous inspection report and
the reported corrective actions; 2) distributed survey instruments to inspected entity(s) and
compiled and analyzed the results to measure and report changes in the period between the
previous inspection and this CFR; 3) conducted on-site interviews and reviewed and collected
documentation to substantiate reported corrective actions; 4) addressed new, significant
deficiencies or vulnerabilities identified in the CFR survey results and during the course of the on-
site CFR and, where appropriate, issued new recommendations; and, 5) discussed the substance of
the draft CFR report at the final meeting with the head of the inspected entity.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Office of Inspector General                               ii
Key Findings                                              1
Evaluation of Compliance                                  2
  Compliance Overview                                     2
  Context                                                 2
Leadership                                                4
  Platform Management Group Position Reclassification     5
Policy and Program Implementation                         6
  Publications                                            6
  Grants for Expert Speakers                              6
  Audience Research and Evaluation Position Desk Audit    7
Regional Coordination and American Spaces                 8
  Mobile Learning Initiative                              8
  Office of Regional Coordination                         9
Digital Outreach                                         10
Resource Management                                      12
  Contracting Officer’s Representatives                  12
  Contract Workforce                                     12
  Information Management                                 13
Management Controls                                      15
  Travel                                                 15
List of CFR Recommendations                              17
Principal Officials                                      20
Abbreviations                                            21
Inspection Terms and Definitions                         22
Appendix A: Status of 2013 Inspection Recommendations    24
Appendix B: Status of 2013 Informal Recommendations      38




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
   The Bureau of International Information Programs has complied with 59 of the 80 formal
    recommendations from the 2013 inspection report. The Compliance Followup Review
    reissues 22 of the formal recommendations, 7 of which are revised and reissued. The six
    informal recommendations issued in the original report were determined to have been
    implemented and are closed.

   Since the 2013 inspection, Bureau of International Information Programs leadership has
    made significant changes to increase transparency and improve communication among the
    staff. The bureau has invested its mid-level managers with authority to make more day-to-
    day program decisions.

   The 2013 inspection found the absence of a Department-wide public diplomacy strategy that
    ties resources to priorities directly affects the bureau’s work and recommended the Office of
    the Under Secretary for Public Diplomacy and Public Affairs conduct a management review
    of public diplomacy in the Department. The review has not been done. The arrival of new
    leadership in many of the senior public diplomacy positions in the Department presents an
    opportune time to conduct this review.

   Responsibility for social media within the Department continues to be uncertain. Without a
    clear Department social media strategy, the Bureau of International Information Programs
    and other social media practitioners will continue to duplicate efforts and waste resources.

   How the Bureau of International Information Programs supports the mission of the Secretary
    of State and the White House has long been unclear to stakeholders and was an issue raised
    in the 2013 inspection. The bureau now has a comprehensive outreach plan and has begun to
    implement it.

   The joint executive office has new leadership and has reorganized since the 2013 inspection.
    Human resources and information technology operations have improved. The Bureau of
    International Information Programs continues to address management controls weaknesses in
    travel and is working with the Bureau of Administration to improve contracting processes.


All findings and recommendations in this report are based on conditions observed during the
CFR and the standards and policies in effect at the time of the original inspection and during the
course of the CFR. The CFR took place in Washington, DC, between January 7 and February 28,
2014. Michael Hurley (team leader), Jacqueline James (deputy team leader), Ronda Capeles,
Daniel McCollum, and Matthew Ragnetti conducted the review.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
Compliance Overview

        Of the 80 formal recommendations issued in the 2013 inspection report, 15 were closed
before the Compliance Followup Review CFR and 65 remained open. As a result of the CFR, 15
open recommendations (CFR Recommendations 1, 2, 3, 4, 5, 6, 7, 14, 15, 16, 17, 18, 20, 21, and
22) were reissued, 7 (CFR Recommendations 8, 9, 10, 11, 12, 13, and 19) were revised and
reissued, and 43 were closed. All 15 recommendations closed during the OIG initial compliance
phase remain closed. The six informal recommendations issued in the original report were
determined to have been implemented and are closed.

       This CFR automatically closes all formal and informal recommendations issued in the
2013 inspection. The complete status of the formal and informal recommendations issued in the
2013 inspection report is provided in Appendix A and Appendix B of this CFR report.

Context

        The Bureau of International Information Programs (IIP), one of three bureaus under the
authority of the Under Secretary for Public Diplomacy and Public Affairs, provides products and
services that support the Department of Sate’s (Department) policy-advocacy work. These
products range from videos and social media tools to expert speakers. The bureau supports
American Spaces, which are venues where foreign audiences can learn about American policies
and society. IIP also supports digital engagement with foreign audiences, including interactive
Web chats. The Smith-Mundt Act1 shapes public diplomacy responsibilities in the Department
and controls domestic dissemination of material intended for foreign audiences.2

       IIP staffing in December 2013 included 223 Civil Service employees, 57 Foreign Service
Officers, and 5 interns/detailees/Y tours (short tours)/when actually employed staff (rehired
annuitants). IIP also employed 138 contractors.

        The 2013 OIG inspection identified leadership issues, including the coordinator’s lack of
inclusiveness in front office decisions, problems with the organizational structure of the bureau,
and low morale among the staff. IIP leadership has turned over since the inspection, with the
arrival of a new coordinator in September 2013 and a new deputy coordinator in January 2014.

        IIP’s new leadership has made a good start toward improving communication and
transparency. It has conducted offsites for bureau managers and solicited employee feedback. IIP
has also instituted a weekly telephone call with the coordinator, started a weekly morning
meeting for all IIP managers and division chiefs, and set up an “Ask” widget site to the
coordinator.


1
  The US Information and Educational Exchange Act of 1948 (Public Law 80-402), as amended, popularly referred
to as the Smith–Mundt Act (22 U.S.C. 1431 et seq.).
2
  22 U.S.C. 1461-1a.


                                           2
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        IIP leadership has also redefined IIP’s mission. A key question IIP leadership poses to its
managers is: How can public diplomacy advance any given foreign policy objective? The IIP
management team’s task is to answer that question. An example of how IIP uses public
diplomacy to advance foreign policy objectives is the Young African Leaders Initiative (YALI),
a White House initiative that includes a Bureau of Educational and Cultural Affairs (ECA)
exchange program. This year saw almost 50,000 applicants for 500 slots for exchanges in the
program. IIP’s contribution to the initiative has been to establish relationships and engage with
the self-identified young African leaders not selected for the program. IIP surveyed this group to
discover ways the bureau can contribute to their professional development through instruments
such as an online course on creating a small business. IIP uses the YALI network of contacts to
inform them about U.S. policies and engage them in a dialog.

        The 2013 inspection recommended IIP implement a comprehensive plan for outreach to
the Department and key foreign affairs agencies. During the CFR, IIP produced and began to
implement an outreach plan for FY 2014. The IIP coordinator has made initial courtesy calls
across the Department. He attends weekly meetings hosted by the Secretary of State and
presented at the Secretary’s offsite for senior staff and at the 2014 chiefs of mission conference.




                                         3
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Leadership
       The 2013 inspection characterized IIP leadership as creating an environment of “secrecy,
suspicion, and uncertainty.” The editorial board was the particular instrument that caused
confusion and delays in decision making. The inspection recommended the board’s role be
changed to focus on high-level programmatic decisions and to invest middle managers with more
day-to-day authority. The new leadership has eliminated the editorial board, replacing it with a
weekly office directors’ meeting, plus a project review board. These meetings serve to empower
middle managers to do their jobs by deciding which projects will go forward.

        IIP is headed by an assistant secretary equivalent–a coordinator. The number of assistant
secretaries in the Department is limited by a congressional cap. The 2013 inspection
recommended the Deputy Secretary for Management and Resources continue to seek legislative
authority to designate the coordinator as an assistant secretary. Prior to the CFR, the Executive
Secretariat responded that neither it nor the Deputy Secretary can address this question. OIG
transferred action for the recommendation to the Office of the Under Secretary for Public
Diplomacy and Public Affairs, in coordination with the Office of the Under Secretary for
Management and the Bureau of Legislative Affairs. The Office of the Under Secretary for Public
Diplomacy and Public Affairs responded that the Department has been seeking an increase in the
statutory cap for assistant secretaries for the past several congressional sessions, but Congress
has not passed legislation to raise the cap. The lack of an assistant secretary rank in IIP limits the
coordinator’s effectiveness and Department perceptions of the bureau. Recommendation 1 is
reissued.

Recommendation CFR 1: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Office of the Under Secretary for Management and the Office of
the Bureau of Legislative Affairs, should continue to seek legislative authority to designate the
senior position in the Bureau of International Information Programs as an assistant secretary.
(Action: R/PPR, in coordination with M/PRI and H)

        IIP’s new leaders are strategizing to find the right balance in such questions as whether
IIP will speak directly to audiences through social media or work through the public affairs
sections, how to measure success and impact, how to determine the appropriate audience, and
how to allocate resources among the various public diplomacy tools. The 2013 inspection
recommended the Department conduct a management review of public diplomacy to answer
these questions. The Office of the Under Secretary for Public Diplomacy and Public Affairs
response was that the review would be done only after the Deputy Secretary for Management
and Resources and Under Secretary for Public Diplomacy and Public Affairs were in place. Both
have now been confirmed. This, coupled with the fact that all the public diplomacy bureaus have
new leadership, presents an opportune time to conduct a management review of the public
diplomacy function. Recommendation 2 is reissued.

Recommendation CFR 2: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Office of the Deputy Secretary for Management and Resources,
should conduct a management review of public diplomacy in the Department of State. (Action:
R/PPR, in coordination with S/ES)


                                         4
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Platform Management Group Position Reclassification

        The 2013 inspection found that the size of the operation and level of responsibility of the
platform management group did not warrant a senior designation for the group’s leader. The
Bureau of Human Resources approved the creation of a platform management group that reports
directly to the principal deputy coordinator. However, IIP’s proposed organizational chart did not
identify the platform management’s leader as a managing director, nor was it clear that the scope
or size of the group would merit the rank. The Bureau of Human Resources acknowledged that it
erroneously classified the position with the title of managing director without the appropriate
approval. According to the Foreign Affairs Manual,1 FAM 014.6 a., the Under Secretary for
Management must approve, in advance and in writing, changes in functions and responsibilities
between bureaus, as well as the establishment of all assistant secretary equivalent positions and
all deputy assistant secretary (or equivalent) positions, as well as all managing director positions.

        In response, IIP consulted with the Bureau of Human Resources on appropriately
reclassifying the position pending the new coordinator’s arrival and evaluation of IIP’s programs
and current structure. IIP’s new coordinator arrived in late September 2013. However, the
platform management leader’s position is still identified as a managing director.
Recommendation 8 is reissued.

Recommendation CFR 3: The Bureau of International Information Programs should submit a
request to the Bureau of Human Resources to appropriately reclassify the leadership position in
the Platform Management group. (Action: IIP)




                                         5
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Publications

        The 2013 inspection found that the publications section suffered from problems with
work flow and the front office’s lack of prioritization. IIP submitted an FY 2013 annual
publications plan for compliance, but it did not include a production schedule for FY 2014.
These problems persist in several divisions across IIP, as employees wait for instructions,
organization charts, and information about their budgets. The publications section cannot plan
projects for the year until they know what their human and financial resources will be.
Recommendation 10 is reissued.

Recommendation CFR 4: The Bureau of International Information Programs should
implement an annual publications plan that includes a production schedule and that takes staff
resources into account. (Action: IIP)

        An additional issue noted in the 2013 inspection is the assignment of work in the Office
of Written Content to writers by someone who is not their rater. This problem still exists. IIP’s
October 2013 compliance response states that a decision to change rater responsibilities awaits
the coordinator’s overall evaluation. IIP leadership has not addressed the issue. Recommendation
12 is reissued.

Recommendation CFR 5: The Bureau of International Information Programs should formalize
the production of policy-support articles, clarifying the supervisory relationships in the Office of
Written Content. (Action: IIP)

Grants for Expert Speakers

        The 2013 inspection found that grants officers, located in the joint ECA-IIP executive
office, did not have adequate procedures and guidance to exercise oversight over individual
grants. The inspection team found a number of problems in the division, including incomplete
grants files and grants division staff unfamiliar with many key provisions in the grants policy
directives about individual travel grants and close out requirements.

        Since February 2013, IIP has been working with the Bureau of Administration to
implement the State Assistance Management System (SAMS), which facilitates the full lifecycle
management of Federal assistance from pre-award to closeout to comply with Federal and
Department mandates regarding grants. However, SAMS may not be cost effective to support the
small dollar grants IIP issues. While moving ahead to implement SAMS, IIP proposed an
alternative to the Under Secretary for Management. The bureau would use a cooperative
agreement to hire a program agency competitively through the Office of Acquisition
Management for grants administration and the logistical aspects of the speakers program. During
the CFR, IIP sent a memorandum to the Office of the Under Secretary for Management with the
alternative plan. In the event the cooperative agreement is not finalized by the end of 2014, IIP
plans to move forward with SAMS implementation. Recommendation 17 is reissued.



                                         6
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 6: The Bureau of International Information Programs, in coordination
with the Bureau of Educational and Cultural Affairs, should implement procedures to include
oversight and proper documentation of all grants requirements for individual travel from the pre-
award stage through closeout. (Action: IIP, in coordination with ECA)

Audience Research and Evaluation Position Desk Audit

        The 2013 inspection recommended a desk audit of the senior position in the Office of
Audience Research and Evaluation because of the office’s low productivity and the unclear
function of the position in IIP operations. In response to the 2013 inspection, IIP proposed
drafting a new position description for the director of the office to reflect the rebalancing of
duties. However, IIP delayed further action to rewrite and classify the senior position pending the
arrival of the new coordinator and his evaluation of IIP’s programs and current structure.
Recommendation 25 is reissued.

Recommendation CFR 7: The Bureau of International Information Programs should conduct a
desk audit of the senior position in the Office of Audience Research and Evaluation. (Action:
IIP)




                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Regional Coordination and American Spaces
Mobile Learning Initiative

       The 2013 inspection recommended that IIP should prepare and implement a plan for the
Mobile Learning Initiative. The inspection team found that IIP leadership initiated a program to
provide eReaders to embassies and American Spaces but without their input in its development.
In 2010, IIP delivered the first batch of eReaders to embassies without adequate instruction or
procedures to register the devices and download content. The consensus among information
resource officers was that they could have contributed to more effective use of eReaders in
support of public diplomacy if they had been consulted.

        IIP’s Office of Audience Research Measurement conducted an evaluation of the initiative
but decided not to move beyond the initial pilot. The office determined that future distribution of
eReaders in American Spaces would be provided through the American Spaces annual support
funds and IIP would push content, including IIP publications, to eReaders distributed to the field
through Amazon’s WhisperCast platform. The new post-driven eReader process would allow IIP
to evaluate the success of American Spaces eReader activities on the basis of criteria, such as the
number and types of programs using eReaders, circulation of the devices, and the number of
downloads of IIP content.

         OIG acknowledges IIP’s alternate implementation action to comply with the
recommendation. However, IIP has not clearly defined successful implementation of the
initiative or implemented quantifiable performance metrics for posts to report on their progress.
The lack of goals and performance metrics makes the program vulnerable to waste.
Recommendation 32 is revised and reissued.

Recommendation CFR 8: The Bureau of International Information Programs should issue to
posts participating in the American Spaces eReader program formal guidance that defines
measurable goals for the program and implements mechanisms for reporting on the performance
metrics. (Action: IIP)

        IIP has supplied 2,359 eReader devices to embassies around the world. The 2013
inspection noted that the devices should be tracked and managed to avoid loss or theft. IIP
shifted from directly providing eReader devices in the pilot to only providing funds for their
acquisition, which will require registration with Amazon’s Whispercast system. IIP says it will
take action to decommission the devices already distributed by transferring ownership to
designated posts. Recommendation 33 is revised and reissued.

Recommendation CFR 9: The Bureau of International Information Programs should provide
documentation as to the disposition of bureau-purchased eReaders during the pilot program.
(Action: IIP)




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Office of Regional Coordination

        One of the decisions delayed by the arrival of a new coordinator is the hiring of a director
for the Office of Regional Coordination. In the June 27, 2013, compliance response, IIP
concurred with Recommendation 34 in the 2013 inspection report, stating that two candidates
were identified. The October 2013 IIP compliance response to OIG stated, however, that an
acting director had been assigned. The CFR team found an acting director still in place. The IIP
front office has delayed a decision because of uncertainty as to whether this position is actually
needed. Further delay adds to staff anxiety about resources. Recommendation 34 is revised and
reissued.

Recommendation CFR 10: The Bureau of International Information Programs should decide
whether to assign a permanent director for the Office of Regional Coordination and implement
accordingly. (Action: IIP)




                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Digital Outreach
        IIP lacks a comprehensive social media strategy to tie IIP’s products more closely to the
Department’s policy initiatives. In an IIP town hall meeting held during the CFR, the coordinator
stated, although IIP will be where social media tools are developed and adapted in the
Department, it should not do so in isolation. IIP will need to encourage the rest of the
Department to participate in the process of identifying the public diplomacy aspects of foreign
policy initiatives. IIP will be responsible for assessing how the application of technology can
assist policymakers to achieve Department and White House goals. Recommendation 37 is
revised and reissued.

Recommendation CFR 11: The Office of the Under Secretary for Public Diplomacy and
Public Affairs, in coordination with the Bureau of International Information Programs and the
Bureau of Public Affairs, should implement a social media strategy that clarifies the goals of
social media in the Department of State and instructs its practitioners on when and where to use
it. (Action: R/PPR, in coordination with IIP and PA)

        The 2013 inspection reported that IIP spent $630,000 on two advertising campaigns to
increase the number of general Facebook fans and recommended that advertising be directed to
specific public diplomacy goals to support specific programs. Because of the inspection, IIP has
largely stopped spending on advertising to increase the number of fans.

         As recommended in the 2013 inspection, working-level social media practitioners in IIP
and the Bureau of Public Affairs now meet regularly to compare notes. As social media continue
to grow in popularity around the world and as the Department becomes more comfortable with
its use in advancing foreign policy objectives, it is more important than ever that roles of the
various players be made clear to reduce waste of resources and duplication of effort. The Office
of the Under Secretary for Public Diplomacy and Public Affairs was assigned action for
Recommendations 5 and 38 as both involve eliminating duplication of effort in IIP and the
Bureau of Public Affairs. In the October 2013 compliance response to OIG, the Office of the
Under Secretary for Public Diplomacy and Public Affairs acknowledged the lack of clarity
between the two bureaus on several fronts. The IIP coordinator and the Bureau of Public Affairs
principal deputy assistant secretary have held discussions about a joint digital outreach plan. The
Department has not yet produced a written delineation of the roles of social media employees or
identified functional overlap between IIP and the Bureau of Public Affairs. Recommendations 5
and 38 are revised and reissued as one.

Recommendation CFR 12: The Office of the Under Secretary for Public Diplomacy and
Public Affairs, in coordination with the Bureau of International Information Programs and the
Bureau of Public Affairs, should establish a written delineation of the roles, audiences, and
parameters for social media in the two bureaus. (Action: R/PPR, in coordination with IIP and
PA)

        The social media practitioners in the Bureau of Near Eastern Affairs and IIP have not
agreed to work together as recommended in the 2013 inspection. The report recommended that
IIP’s Vision of America social media platforms be merged with the Bureau of Near Eastern
Affairs’ USAdarFarsi social media platforms. Though they both use the Persian language,

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

practitioners claim almost no overlap in audiences. Since the inspection, IIP has circulated a
Vision of America mission statement that neither the Bureau of South and Central Asian Affairs
nor the Bureau of Near Eastern Affairs has approved. Without a clear mission statement, NEA
and IIP social media practitioners find it difficult to make use of each other’s products, causing
waste and duplication. Recommendation 40 is revised and reissued.

Recommendation CFR 13: The Bureau of International Information Programs, in coordination
with the Bureau of Near Eastern Affairs and the Bureau of South and Central Asian Affairs,
should finalize a mission statement for Vision of America. (Action: IIP, in coordination with
NEA and SCA)




                                       11
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
Contracting Officer’s Representatives

        The 2013 inspection found some IIP contracting officer’s representatives did not receive
the required designation letters that advise them of their contract oversight responsibilities.
According to the Foreign Affairs Handbook, 14 FAH-2 H-143.2, the contracting officer is
responsible for preparing a contracting officer’s representatives delegation memorandum that
outlines the scope of the representatives’ authority to act on behalf of the contracting officer. The
Bureau of Administration reported in the October 31, 2013, compliance response that it has been
working with IIP to properly designate or redesignate IIP contracting officer’s representatives
and will continue its efforts until all documentation is up to date. However, the Bureau of
Administration could not produce a list of contract officer’s representative designations for the
CFR team to review. Recommendation 60 is reissued.

Recommendation CFR 14: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should confirm all contracting officer’s representative
assignments for the Bureau of International Information Programs’ active contracts and issue
new designation letters for representatives lacking this documentation in their files. (Action: A,
in coordination with IIP)

Contract Workforce

        The 2013 inspection found that IIP does not have a formal workforce plan to determine
which job functions are more appropriate for direct hires and which for contractors. Contractors
represented approximately 45 percent of total IIP staffing (142 contractors), and many performed
tasks similar or equal to those of direct hires. The inspection also noted that contractors in some
offices may be performing inherently governmental functions.

       At the time of the original inspection, IIP management asserted that the high number of
contractors was necessary to support the bureau’s work. IIP spent about 60 percent of its annual
budget, approximately $42 million and an additional $10 million of carryover funds, on
contracting. Because of the stringent budget environment at the time, the inspection noted that
carryover funds might not be available in future years.

       The Department uses workforce studies to determine the appropriate balance of
employees and contractors and the appropriate functions of each. Each bureau is responsible, per
3 FAM 2164, for managing its contractor and Federal employee resources appropriately and for
ensuring that only direct hires perform inherently governmental functions.

        When the Bureau of Administration and IIP met in September 2013 to kick-off a
workforce study, IIP requested the Bureau of Administration postpone the study until completion
of IIP’s realignment. In January 2014, both bureaus reported that action on the recommendation
is pending. Recommendation 64 is reissued.




                                        12
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 15: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should conduct a workforce study to identify the appropriate
workforce mix of direct-hire and contract employees based on both cost considerations and
control over the bureau’s mission. (Action: A, in coordination with IIP)

Information Management

Strategic Planning

        The 2013 inspection found that IIP did not have a bureau-wide information technology
strategy and recommended IIP develop one. The plan would allow IIP to better align technology
solutions to its business needs, while specifically addressing privacy concerns and electronic
information accessibility for people with disabilities. In October 2013, IIP reported to OIG that it
had commenced an assessment of information technology initiatives and that the information
technology strategic plan would move forward in conjunction with the IIP functional bureau
strategy. However, the CFR found that the information technology strategic plan has not moved
beyond the discussion stage. Recommendation 69 is reissued.

Recommendation CFR 16: The Bureau of International Information Programs should develop
and implement an information technology strategic plan. (Action: IIP)

Dedicated Internet Networks

        The 2013 inspection recommended the Bureau of Information Resource Management
(IRM) conduct an information technology network infrastructure needs analysis for public
diplomacy work and implement the results. IIP uses dedicated Internet networks for a variety of
services, including software development, video production, and Web engagement with
worldwide audiences, that cannot be provided on the Department’s unclassified network. The
joint ECA-IIP executive office manages more than 114 workstations and 20 servers on 14
dedicated Internet networks to support this work. IRM is responsible for providing network
infrastructure support to the Department, but an increase in the number of dedicated Internet
networks has, in practice, shifted this responsibility to IIP, leading to duplication of effort and
inefficient use of information technology and network security resources.

      The CFR found that initial discussions between IRM and IIP took place but IRM has not
conducted an assessment of the network infrastructure needs. Recommendation 79 is reissued.

Recommendation CFR 17: The Bureau of Information Resource Management, in coordination
with the Bureau of International Information Programs, should conduct an information
technology network infrastructure needs analysis for public diplomacy work and implement the
results. (Action: IRM, in coordination with IIP)

Internet Steering Committee

        IIP manages a Department-wide Internet steering committee. The 2013 inspection found
the committee operated with an outdated charter. As new technologies have emerged, the
committee has shifted its focus to social media policies. IIP is currently drafting an update of the
Internet steering committee charter. Recommendation 80 is reissued.
                                        13
                            SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 18: The Bureau of International Information Programs, in coordination
with the Office of the Under Secretary for Management, should update the Internet steering
committee’s charter. (Action: IIP, in coordination with M/PRI)




                                     14
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
Travel

        The 2013 inspection found numerous problems with travel in IIP. In reviewing 68 travel
vouchers from 2010 to 2013, inspectors found potential issues with more than half the vouchers
submitted for front office travel, including potentially inappropriate use of premium travel,
insufficiently documented and justified business class travel, and insufficiently documented
lodging costs. IIP did not appear to follow Department travel regulations (14 FAM 520 Travel
Authorization and 14 FAM 580 Performing Travel) for approval and performance of official
travel. The 2013 inspection recommended the Bureau of the Comptroller and Global Financial
Services (CGFS) audit all IIP front office travel for 2011 and 2012. CGFS disagreed with being
assigned action for the recommendation, so OIG transferred action to IIP in the OIG August
2013 compliance analysis. When transferring action from CGFS to IIP, OIG provided IIP a
separate action memorandum dated September 19, 2013, with a list of 56 specific travel voucher-
related action items to audit.

        The CFR found that the joint ECA-IIP executive office has reviewed the 56 actions,
which required collecting, reviewing, and analyzing documentation and entering it into the E2
Solutions. Thirty-eight of the actions have been resolved on the basis of documentation
collected. Eighteen remain unresolved primarily because of missing documentation. Thirteen of
the 18 unresolved actions will require IIP referral to the CGFS Office of Oversight and
Management Analysis for collection action, as directed in the OIG action memorandum, per 4
FAM 492 Debt Management. Recommendation 3 is revised and reissued to include the 18
unresolved actions in the OIG action memorandum provided separately to IIP on September 19,
2013.

Recommendation CFR 19: The Bureau of the International Information Programs should
complete the audit of the 18 unresolved travel actions in the September 19, 2013, OIG action
memorandum, including submitting to the Office of Oversight and Management Analysis
amounts to be collected, as appropriate. (Action: IIP)

        The 2013 inspection found ineffective management controls in the joint ECA-IIP
executive office over the travel authorization process. The office staff was unable to produce a
memorandum designating individuals to authorize travel and related expenses, as required by 14
FAM 523.2-1. The approvals found in the travel vouchers reviewed were inconsistent and often
at a lower level of authority, especially for business class and actual expenses. Some procedural
deficiencies were due to mistakes or lack of understanding about travel policies. The 2013
inspection recommended IIP revise the travel approval chain within the joint ECA-IIP executive
office to delegate travel approval authority to the appropriate officials and submit delegations in
writing to the Bureau of Administration Office of Directives Management.

        Since the 2013 inspection, the joint ECA-IIP executive office has been reviewing and
revising travel program roles and responsibilities and plans to publish them upon completion,
including written delegation of authority to the appropriate officials. The office is also
implementing the E2 Travel Solutions for IIP but decided to delay implementation until the


                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

reorganization is finalized. Action on this recommendation is pending. Recommendation 65 is
reissued.

Recommendation CFR 20: The Bureau of International Information Programs, in coordination
with the Bureau of Educational and Cultural Affairs, should revise the travel approval chain
within the joint Executive Office to delegate travel approval authority to the appropriate officials
and submit delegations in writing to the Office of Directives Management. (Action: IIP, in
coordination with ECA)

        The 2013 inspection recommended IIP properly document the circumstances supporting
the authorization of indirect travel, business class travel, actual lodging, and other exceptional
travel. Most of the travel vouchers the team reviewed lacked some or all documentation required
by 4 FAH-3 H-465.1-3, in particular, invoices for airline travel. For 31 travel vouchers, the
approval memos for business class travel, indirect travel, and other travel arrangements requiring
special approval were missing from the official files. Twelve authorized justifications for
business class travel did not have sufficient support and relied upon vague references to meet
“business requirements.” Five cases of apparent indirect travel did not have proper
documentation, including a written authorization, a record of travel on a cost-constructive basis,
and an exception to using commercial fares, as required by 14 FAM 546. The absence of proper
documentation increases the risk of unauthorized travel.

        The EX office is revising its travel procedures to require employees to upload their own
travel documents into E2 Travel Solutions. The office plans to distribute a notice with the new
policy in conjunction with the travel program roles and responsibilities described in the finding
for CFR Recommendation 20. Recommendation 67 is reissued.

Recommendation CFR 21: The Bureau of International Information Programs, in coordination
with the Bureau of Educational and Cultural Affairs, should require all travelers to scan
necessary voucher documentation into the E2 travel system, including air ticket invoices,
boarding passes, receipts, and approval memos. (Action: IIP, in coordination with ECA)

       Since the 2013 inspection, the joint ECA-IIP executive office drafted and issued a
business class policy for IIP. The office is also reviewing all reporting and compliance
requirements and plans to develop reporting metrics and tracking mechanisms based on these
requirements. Action on this part of the recommendation is pending finalization of IIP’s
reorganization. Recommendation 68 is reissued.

Recommendation CFR 22: The Bureau of International Information Programs, in coordination
with the Bureau of Educational and Cultural Affairs, should properly document the
circumstances supporting the authorization of indirect travel, business class travel, actual
lodging, and other exceptional travel. (Action: IIP, in coordination with ECA)




                                       16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of CFR Recommendations
Recommendation CFR 1: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Office of the Under Secretary for Management and the Office of
the Bureau of Legislative Affairs, should continue to seek legislative authority to designate the
senior position in the Bureau of International Information Programs as an assistant secretary.
(Action: R/PPR, in coordination with M/PRI and H)

Recommendation CFR 2: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Office of the Deputy Secretary for Management and Resources,
should conduct a management review of public diplomacy in the Department of State. (Action:
R/PPR, in coordination with S/ES)

Recommendation CFR 3: The Bureau of International Information Programs should submit a
request to the Bureau of Human Resources to appropriately reclassify the leadership position in
the Platform Management group. (Action: IIP)

Recommendation CFR 4: The Bureau of International Information Programs should
implement an annual publications plan that includes a production schedule and that takes staff
resources into account. (Action: IIP)

Recommendation CFR 5: The Bureau of International Information Programs should
formalize the production of policy-support articles, clarifying the supervisory relationships in the
Office of Written Content. (Action: IIP)

Recommendation CFR 6: The Bureau of International Information Programs, in coordination
with the Bureau of Educational and Cultural Affairs, should implement procedures to include
oversight and proper documentation of all grants requirements for individual travel from the pre-
award stage through closeout. (Action: IIP, in coordination with ECA)

Recommendation CFR 7: The Bureau of International Information Programs should conduct
a desk audit of the senior position in the Office of Audience Research and Evaluation. (Action:
IIP)

Recommendation CFR 8: The Bureau of International Information Programs should issue to
posts participating in the American Spaces eReader program formal guidance that defines
measurable goals for the program and implements mechanisms for reporting on the performance
metrics. (Action: IIP)

Recommendation CFR 9: The Bureau of International Information Programs should provide
documentation as to the disposition of bureau-purchased eReaders during the pilot program.
(Action: IIP)

Recommendation CFR 10: The Bureau of International Information Programs should decide
whether to assign a permanent director for the Office of Regional Coordination and implement
accordingly. (Action: IIP)

Recommendation CFR 11: The Office of the Under Secretary for Public Diplomacy and
Public Affairs, in coordination with the Bureau of International Information Programs and the
                                                17
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Bureau of Public Affairs, should implement a social media strategy that clarifies the goals of
social media in the Department of State and instructs its practitioners on when and where to use
it. (Action: R/PPR, in coordination with IIP and PA)

Recommendation CFR 12: The Office of the Under Secretary for Public Diplomacy and
Public Affairs, in coordination with the Bureau of International Information Programs and the
Bureau of Public Affairs, should establish a written delineation of the roles, audiences, and
parameters for social media in the two bureaus. (Action: R/PPR, in coordination with IIP and
PA)

Recommendation CFR 13: The Bureau of International Information Programs, in
coordination with the Bureau of Near Eastern Affairs and the Bureau of South and Central Asian
Affairs, should finalize a mission statement for Vision of America. (Action: IIP, in coordination
with NEA and SCA)

Recommendation CFR 14: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should confirm all contracting officer’s representative
assignments for the Bureau of International Information Programs’ active contracts and issue
new designation letters for representatives lacking this documentation in their files. (Action: A,
in coordination with IIP)

Recommendation CFR 15: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should conduct a workforce study to identify the appropriate
workforce mix of direct-hire and contract employees based on both cost considerations and
control over the bureau’s mission. (Action: A, in coordination with IIP)

Recommendation CFR 16: The Bureau of International Information Programs should develop
and implement an information technology strategic plan. (Action: IIP)

Recommendation CFR 17: The Bureau of Information Resource Management, in
coordination with the Bureau of International Information Programs, should conduct an
information technology network infrastructure needs analysis for public diplomacy work and
implement the results. (Action: IRM, in coordination with IIP)

Recommendation CFR 18: The Bureau of International Information Programs, in
coordination with the Office of the Under Secretary for Management, should update the Internet
steering committee’s charter. (Action: IIP, in coordination with M/PRI)

Recommendation CFR 19: The Bureau of the International Information Programs should
complete the audit of the 18 unresolved travel actions in the September 19, 2013, OIG action
memorandum, including submitting to the Office of Oversight and Management Analysis
amounts to be collected, as appropriate. (Action: IIP)

Recommendation CFR 20: The Bureau of International Information Programs, in
coordination with the Bureau of Educational and Cultural Affairs, should revise the travel
approval chain within the joint Executive Office to delegate travel approval authority to the
appropriate officials and submit delegations in writing to the Office of Directives Management.
(Action: IIP, in coordination with ECA)

                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation CFR 21: The Bureau of International Information Programs, in
coordination with the Bureau of Educational and Cultural Affairs, should require all travelers to
scan necessary voucher documentation into the E2 travel system, including air ticket invoices,
boarding passes, receipts, and approval memos. (Action: IIP, in coordination with ECA)

Recommendation CFR 22: The Bureau of International Information Programs, in
coordination with the Bureau of Educational and Cultural Affairs, should properly document the
circumstances supporting the authorization of indirect travel, business class travel, actual
lodging, and other exceptional travel. (Action: IIP, in coordination with ECA)




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                               Name                     Arrival Date
Coordinator                                    Macon Phillips                 09/13
Principal Deputy Coordinator                   Jean Manes                     01/14
Deputy Coordinator for Regional Coordination
   and American Spaces                         Vacant
Deputy Coordinator for Content Development     Nicholas Namba                 07/11
Managing Director for Platform Management      Laurie Weitzenkorn             07/13
Director for Content Support Services          Brian Merrick (Acting)         11/13
Executive Director, ECA-IIP/EX                 Carmen Cantor                  04/13




                                     20
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
Department       U.S. Department of State

CFR              Compliance Followup Review

CGFS             Bureau of the Comptroller and Global Financial Services

ECA              Bureau of Educational and Cultural Affairs

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

IIP              Bureau of International Information Programs

IRM              Bureau of Information Resource Management

OIG              Office of Inspector General

SAMS             State Assistance Management System

YALI             Young African Leaders Initiative




                            21
                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Inspection Terms and Definitions
Compliance response: A written response from the action office to which a recommendation
has been assigned for action, informing OIG of agreement or disagreement with the
recommendation. Comments indicating agreement shall include planned corrective actions and,
where appropriate, the actual or proposed target dates for achieving these actions. The reasons
for any disagreement with a recommendation must be explained fully. Where disagreement is
based on interpretation of law, regulation, or the authority of officials to take or not take action,
the response must include the legal basis.
Final action: The completion of all actions that the management of an action office, in its
management decision, has concluded is necessary to address the findings and recommendations
in OIG reports.
Finding: A conclusion drawn from facts and information about the propriety, efficiency,
effectiveness, or economy of operation of a post, unit, or activity.
Management decision: When the management of an action office for an OIG recommendation
informs OIG of its intended course of action in response to a recommendation. If OIG accepts
the management decision, the recommendation is considered resolved. If OIG does not accept
the management decision and the issue cannot be resolved after a reasonable effort to achieve
agreement, the Inspector General may choose to take it to impasse.
Recommendation: A statement in an OIG report requiring action by the addressee organizations
or officials to correct a deficiency or need for change or improvement identified in the report.
Recommendation Status:
       Open: A recommendation is open when one of the following situations applies:
               1) The action office concurs with the recommendation (a management decision
               has been accepted by OIG), but the action office has not presented satisfactory
               evidence that it has implemented the recommendation or some alternative course
               of action acceptable to OIG;
               2) The action office informs OIG that it disagrees with all or part of the
               recommendation, and OIG agrees to accept partial compliance or noncompliance;
               or
               3) Impasse procedures have led to a positive or negative final management
               decision.
       Closed: A recommendation is closed when one of the following situations applies:
               1) OIG formally notifies the action office that satisfactory evidence of final action
               (i.e., information provided by the action office that confirms or attests to
               implementation) on an OIG recommendation has been accepted. The closing of a
               recommendation from an OIG report does not relieve the responsible manager of
               the obligation to report to OIG any changed circumstances substantially affecting
               the problem areas addressed in the recommendation or report and the
               effectiveness of agreed actions to correct these problems;
               2) OIG acknowledges to the action office that an alternative course of action to
               the action proposed in the recommendation will satisfy the intent of the
                                               22
                            SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED

recommendation, and satisfactory evidence showing that the alternative action has
been completed is provided to OIG;
3) OIG agrees partial implementation is acceptable and has been completed, or
4) OIG agrees that noncompliance is acceptable.




                       23
           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Appendix A: Status of 2013 Inspection Recommendations
Recommendation 1: The Office of the Deputy Secretary for Management and Resources, in
coordination with the Office of the Under Secretary for Public Diplomacy and Public Affairs,
should continue to seek legislative authority to designate the senior position in the Bureau of
International Information Programs as an assistant secretary. (Action: S/ES, in coordination with
R/PPR)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 1.

Recommendation 2: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Office of the Deputy Secretary for Management and Resources,
should conduct a management review of public diplomacy in the Department of State. (Action:
R/PPR, in coordination with S/ES)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 2.

Recommendation 3: The Bureau of the Comptroller and Global Financial Services should
conduct an audit of all Bureau of International Information Programs front office staff travel for
the calendar years 2011 and 2012. (Action: CGFS)

Pre-CFR Status: Open

CFR Findings: Revised and reissued as CFR Recommendation 19.

Recommendation 4: The Bureau of International Information Programs should implement a
comprehensive plan for outreach to the rest of the Department of State and key foreign affairs
agencies to maximize public diplomacy work with overseas publics. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 5: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of Public Affairs and the Bureau of International
Information Programs, should identify any functional overlap between those bureaus and assign
responsibility appropriately. (Action: R/PPR, in coordination with PA and IIP)

Pre-CFR Status: Open

CFR Findings: Recommendations 5 and 38 are combined and revised and reissued as CFR
Recommendation 12.

                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 6: The Bureau of International Information Programs should change the
editorial board’s role, reserving for it only high-level programmatic decisions and investing
middle managers with the authority to make day-to-day programmatic decisions. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 7: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should change reporting requirements so that all deputy
coordinators report directly to the coordinator. (Action: IIP, in coordination with DGHR)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 8: The Bureau of International Information Programs should submit a request
to the Bureau of Human Resources to reclassify appropriately the leadership position in the
Platform Management group. (Action: IIP, in coordination with DGHR)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 3.

Recommendation 9: The Bureau of International Information Programs should move the
development and maintenance of partnerships with governmental and private organizations to
the Office of Policy and Outreach. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 10: The Bureau of International Information Programs should implement an
annual publications plan that includes a production schedule and that takes staff resources into
account. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 4.

Recommendation 11: The Bureau of International Information Programs should conduct an
assessment of embassies’ needs for written products with a focus on influencing diverse foreign
audiences. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: The Bureau of International Information Programs should formalize the
production of policy-support articles, clarifying the supervisory relationships in the Office of
Written Content. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 5.

Recommendation 13: The Bureau of International Information Programs should develop an
annual plan, including a production schedule that sets achievable targets and maximizes the
number and quality of video products the bureau develops for embassies. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 14: The Bureau of International Information Programs should unite all
components of the speakers program, including recruitment and logistics, in the Office of
Regional Coordination. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 15: The Bureau of International Information Programs should require
evaluation reports for all speaker programs. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 16: The Bureau of International Information Programs should use only
publicly available travel fares when booking travel for individual grantees. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 17: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement procedures to include
oversight and proper documentation of all grants requirements for individual travel from the pre-
award stage through closeout. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 6.


                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 18: The Bureau of International Information Programs should move judicial
liaison duties to the Office of Policy and Outreach. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 19: The Bureau of International Information Programs should move the
package runner function to the Regional Coordination and American Spaces group and redefine
staff responsibilities. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 20: The Bureau of International Information Programs should remove
contract management and oversight from the senior advisor position in the front office. (Action:
IIP)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 21: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs, should assume
management of the mission activity tracker. (Action: R/PPR, in coordination with IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 22: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs, should assume
responsibility for producing the public diplomacy impact report. (Action: R/PPR, in coordination
with IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 23: The Bureau of International Information Programs should discontinue the
audience research kiosk project. (Action: IIP )

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.


                                       27
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 24: The Bureau of International Information Programs, in coordination with
the Office of the Under Secretary for Public Diplomacy and Public Affairs and the Bureau of
Educational and Cultural Affairs, should move all information technology management
responsibilities from the Office of Audience Research and Evaluation to the Bureau of
Educational and Cultural Affairs. (Action: IIP, in coordination with R/PPR and ECA)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 25: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs, should conduct a desk audit of the senior position in the
Office of Audience Research and Evaluation. (Action: DGHR, in coordination with IIP)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 7.

Recommendation 26: The Bureau of International Information Programs, in coordination with
the Bureau of Administration, should implement a memorandum of understanding governing
their interactions on certifying translators. (Action: IIP, in coordination with A)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 27: The Bureau of International Information Programs should modify the
existing contract for translation services or solicit a new contract for these services. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 28: The Bureau of International Information Programs should move the
Office of Translation Services to the Content Development group. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 29: The Bureau of International Information Programs should implement a
strategic plan for American Spaces that addresses accountability for the increased budget.
(Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

                                        28
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 30: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs, should assess staffing needs and create a succession
management plan for the information resource officer corps. (Action: DGHR, in coordination
with IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 31: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assign a permanent full-time employee with experience
in resource management and budget planning to a vacant full-time employee position to manage
and track the American Spaces budget. (Action: IIP, in coordination with DGHR)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 32: The Bureau of International Information Programs should implement a
plan for the eReader learning initiative that includes measurable goals. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: Revised and reissued as CFR Recommendation 8.

Recommendation 33: The Bureau of International Information Programs should create a
property management plan for bureau-supplied eReader devices currently in embassies. (Action:
IIP)

Pre-CFR Status: Open

CFR Findings: Revised and reissued as CFR Recommendation 9.

Recommendation 34: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assign a permanent director for the Office of Regional
Coordination. (Action: IIP, in coordination with DGHR)

Pre-CFR Status: Open

CFR Findings: Revised and reissued as CFR Recommendation 10.

Recommendation 35: The Bureau of International Information Programs should clarify the
respective scope, roles, and responsibilities of the Office of Innovative Engagement and the
Office of Web Engagement. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.
                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 36: The Bureau of International Information Programs should direct its
digital advertising to specific public diplomacy goals in keeping with Department of State
guidance. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 37: The Bureau of International Information Programs should adopt a social
media strategy that clarifies the primary goals and public diplomacy priorities of its social media
sites. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: Revised and reissued as CFR Recommendation 11.

Recommendation 38: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs and the Bureau of
Public Affairs, should establish a written delineation of the roles, audiences, and parameters for
social media in the two bureaus. (Action: R/PPR, in coordination with IIP and PA)

Pre-CFR Status: Open

CFR Findings: Recommendations 38 and 5 are combined and revised and reissued as CFR
Recommendation 12.

Recommendation 39: The Bureau of International Information Programs, in coordination with
the Bureau of Public Affairs, should establish a regular meeting among working-level social
media staff members. (Action: IIP, in coordination with PA)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 40: The Bureau of International Information Programs, in coordination with
the Bureau of Near Eastern Affairs, should merge Vision of America social media properties into
USAdarFarsi social media properties under Bureau of Near Eastern Affairs leadership. (Action:
IIP, in coordination with NEA)

Pre-CFR Status: Open

CFR Findings: Revised and reissued as CFR Recommendation 13.

Recommendation 41: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
International Information Programs, should establish regular meetings between the staffs of the
two bureaus working on outreach to Iran. (Action: NEA, in coordination with IIP)

Pre-CFR Status: Closed
                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 42: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should deobligate Bureau of International Information
Programs accounts with expired funding, completed performance, and small obligated amounts.
(Action: A, in coordination with IIP)

Pre-CFR Status: Closed

CFR Findings: The CFR Team confirmed implementation; recommendation closed.

Recommendation 43: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should revise its human resources standard
management policies and procedures and reorganize and categorize them on its intranet Web site
to improve user information access. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 44: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should determine what type of personnel
questions and issues should be sent to the human resources officer for action and post them on
the intranet site. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 45: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should provide its human resources staff with
customer service training. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 46: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should include customer service as an element in
human resources staff position descriptions and performance evaluations. (Action: IIP, in
coordination with ECA)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 47: The Bureau of International Information Programs should issue an
administrative notice to staff outlining supervisory responsibility for confirming that employee
                                       31
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

position descriptions are accurate in accordance with Department of State guidelines. (Action:
IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 48: The Bureau of International Information Programs should review the
accuracy of its position descriptions and update them as needed. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 49: The Bureau of International Information Programs should provide
training to managers about the role, duties, and responsibilities of managers and Human
Resources unit staff in the Federal hiring process. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 50: The Bureau of International Information Programs should hold monthly
meetings with hiring managers to discuss the status of vacancy announcements and applicants.
(Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 51: The Bureau of International Information Programs should implement an
orientation program for Foreign Service and contract employees. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 52: The Bureau of International Information Programs should implement a
mentoring program for entry-level officers and employees in personnel categories not covered by
existing counseling and evaluation programs. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 53: The Bureau of International Information Programs should create an Equal
Employment Opportunity section on its SharePoint or intranet site. (Action: IIP)

                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 54: The Bureau of International Programs should post on bulletin boards
throughout the bureau contact information for the Equal Employment Opportunity counselor and
the steps to initiate complaints. (Action: IIP)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 55: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should analyze its procurement processes and
effect changes as needed. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 56: The Bureau of International Information Programs, in coordination with,
the Bureau of Educational and Cultural Affairs and the Bureau of Diplomatic Security, should
test all security alarms and locks annually for proper working order. (Action: IIP, in coordination
with ECA and DS)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 57: The Bureau of International Information Programs should include
compliance with performance management guidelines and due dates as an element in managers’
and supervisors’ work commitments and work requirements and rate managers and supervisors
accordingly. (Action: IIP)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 58: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assess penalties for the late submission of performance
evaluations, midyear performance reviews, Civil Service work commitments, and Foreign
Service work requirements. (Action: IIP, in coordination with DGHR)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.


                                       33
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 59: The Bureau of International Information Programs, in coordination with
the Bureau of Administration and the Bureau of Human Resources, should create a full-time
contracts coordinator position for an experienced contracting officer. (Action: IIP, in
coordination with A and DGHR)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 60: The Bureau of Administration, in coordination with the Bureau of
International Information Programs should confirm all contracting officer’s representative
assignments for the Bureau of International Information Programs’ active contracts and issue
new designation letters for representatives lacking this documentation in their files. (Action: A,
in coordination with IIP)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 14.

Recommendation 61: The Bureau of International Information Programs should implement
policies regarding oversight of on-site contractors, including prior approval from the contracting
officer’s representative for equipment disbursement, telework, identification of contractors, and
overtime hours. (Action: IIP)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 62: The Bureau of International Information Programs should cease tasking
contractors with work outside the scope of their contracts. (Action: IIP)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 63: The Bureau of International Information Programs should modify the
contracts management and invoice system to accommodate contracting officer’s representatives’
recordkeeping requirements as described in Department of State regulations. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 64: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should conduct a workforce study to identify the appropriate
workforce mix of direct-hire and contract employees based on both cost considerations and
control over the bureau’s mission. (Action: A, in coordination with IIP)

                                       34
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 15.

Recommendation 65: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should revise the travel approval chain within
the joint Executive Office to delegate travel approval authority to the appropriate officials and
submit delegations in writing to the Office of Directives Management. (Action: IIP, in
coordination with ECA)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 20.

Recommendation 66: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should provide refresher training to travel
arrangers and approvers. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 67: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should require all travelers to scan necessary
voucher documentation into the E2 travel system, including air ticket invoices, boarding passes,
receipts, and approval memos. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 21.

Recommendation 68: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should properly document the circumstances
supporting the authorization of indirect travel, business class travel, actual lodging, and other
exceptional travel. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 22.

Recommendation 69: The Bureau of International Information Programs should develop a
bureau-wide information technology strategic plan. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 16.


                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 70: The Bureau of International Information Programs should update the
project review board’s charter to include governance and enforcement of Department of State
and Federal information technology management policies. (Action: IIP)

Pre-CFR Status: Closed

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 71: The Bureau of International Information Programs should implement
centralized project management processes for information technology projects and programs.
(Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 72: The Bureau of International Information Programs should stop new
application development using its cloud-based software service until it develops a project plan
that addresses the objectives, business case, risks, security, and annual operating costs of this
service. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 73: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should consolidate the Office of Content Management Systems
and the Office of IT Applications. (Action: IIP, in coordination with DGHR)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 74: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs and the Office of the Under Secretary for Public
Diplomacy and Public Affairs, should transfer development and maintenance support of the
mission activity tracker application to the Bureau of Educational and Cultural Affairs. (Action:
IIP, in coordination with ECA and R/PPR)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 75: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement an information technology
service level agreement. (Action: IIP, in coordination with ECA)
Pre-CFR Status: Open

                                       36
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 76: The Bureau of International Information Programs should inventory its
information technology systems and certify and accredit the systems appropriately. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 77: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement a shared information security
support standard operating procedure, including cyber-incident handling for externally hosted
systems. (Action: IIP, in coordination with ECA)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 78: The Bureau of International Information Programs should provide role-
based information assurance for information technology managers training at the Diplomatic
Security Training Center. (Action: IIP)

Pre-CFR Status: Open

CFR Findings: The CFR team confirmed implementation; recommendation closed.

Recommendation 79: The Bureau of Information Resource Management, in coordination with
the Bureau of International Information Programs, should conduct an information technology
network infrastructure needs analysis for public diplomacy work and implement the results.
(Action: IRM, in coordination with IIP)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 17.

Recommendation 80: The Bureau of International Information Programs, in coordination with
the Office of the Under Secretary for Management, should update the Internet steering
committee’s charter. (Action: IIP, in coordination with M/PRI)

Pre-CFR Status: Open

CFR Findings: Reissued as CFR Recommendation 18.




                                       37
                           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


Appendix B: Status of 2013 Informal Recommendations
    Informal CFR Recommendation 1: The Bureau of International Information Programs
    should consolidate its weekly staff meetings.

    CFR Findings: The CFR team confirmed implementation; recommendation closed.

    Informal CFR Recommendation 2: The Bureau of International Information Programs
    should coordinate with the Bureau of Intelligence and Research to formalize a process for
    sharing research results.

    CFR Findings: The CFR team confirmed implementation; recommendation closed.

    Informal CFR Recommendation 3: The Bureau of International Information Programs
    should make its social media feed items accessible to embassies online before sending
    out the daily social media feeds.

    CFR Findings: The CFR team confirmed implementation; recommendation closed.

    Informal CFR Recommendation 4: The Bureau of International Information Programs
    should establish guidelines setting priorities and clarifying the circumstances under which
    the Office of CO.NX/DVC will support requests that do not support public diplomacy
    goals.

    CFR Findings: The CFR team confirmed implementation; recommendation closed.

    Informal CFR Recommendation 5: The Bureau of International Information Programs
    should identify appropriate criteria for the selection of contracting officer’s
    representatives and assign responsibility accordingly.

    CFR Findings: The CFR team confirmed implementation; recommendation closed.

    Informal CFR Recommendation 6: The Bureau of International Information Programs
    should report all social media and third-party technology in use to the public diplomacy
    Configuration Change Control Board.

    CFR Findings: The CFR team confirmed implementation; recommendation closed.




                                   38
                       SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
